           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


         SOCIAL SECURITY
        ADMINISTRATION’S
  ADMINISTRATIVE FINALITY RULES



     July 2005    A-01-04-24024




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   July 26, 2005                                                                     Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Social Security Administration’s Administrative Finality Rules (A-01-04-24024)



        OBJECTIVE
        Our objective was to determine whether the Social Security Administration (SSA)
        consistently applied the rules of administrative finality under the Supplemental Security
        Income (SSI) program.1

        BACKGROUND
        Title XVI of the Social Security Act established the SSI program in 1972.2 In
        administering the program, SSA seeks to achieve three key objectives:

                 Benefit adequacy, that is, providing a minimum level of income for the aged,
                  blind, and disabled to meet basic living needs;

                 Benefit equity, or ensuring that those with similar income, resources, and living
                  arrangements are treated similarly by establishing objective criteria for
                  determining eligibility and benefit amounts; and

                 Program integrity, or ensuring that benefits are paid accurately and efficiently and
                  with no tolerance for fraud.3




        1
         See Appendix C for information on the rules of administrative finality under the Old-Age, Survivors and
        Disability Insurance program.
        2
            The Social Security Act § 1601, et seq., 42 U.S.C. § 1381, et seq. See also 20 C.F.R. § 416.110.
        3
            SSA, The Supplemental Security Income Program at the Millennium (page 2), November 2000.
Page 2 – The Commissioner


In December 2004, SSA paid over $3 billion in SSI payments to about 7 million
recipients.4 Because SSI is a needs based program, recipients are required to report to
SSA changes in living arrangements, income, or resources, which could impact monthly
payments.5 Despite this requirement, recipients do not always inform the Agency when
changes occur. Therefore, to detect unreported changes, SSA conducts computer
matches with other agencies (e.g., the Internal Revenue Service) and also conducts
periodic eligibility redeterminations with SSI recipients.6

ADMINISTRATIVE FINALITY

Administrative finality is the term used by SSA to describe the discretionary rules under
which the Agency revises previously-issued monthly payments. In general, the Agency
will revise monthly SSI payments within 12 months for any reason, within 24 months for
good cause, or at any time if fraud or similar fault exists.7 According to SSA, the
purpose of administrative finality is to: (1) ease the administration of the program and
(2) allow the public to be able to rely on the Agency’s decisions.8

When a change occurs that may impact an individual’s payment amount, staff normally
revise the affected months and assess any overpayments within 24 months if no fraud
or similar fault is found. Therefore, except in those cases involving fraud or similar fault,
revisions are not made to payments that were issued before the 24-month period (and
overpayments are not assessed), even if the change first occurred more than
24 months in the past.9 (See Appendix D for prior Office of the Inspector General
reports related to administrative finality.)


4
  SSA, Monthly Statistical Snapshot (Table 3), December 2004. SSI payments are funded by the general
revenues of the Federal Government. In addition, State-funded supplementary payments may be issued
to qualified individuals in certain States.
5
 The Social Security Act §§ 1614(f) and 1631(e)(1)–(2), 42 U.S.C. §§ 1382c(f) and 1383(e)(1)–(2),
20 C.F.R. § 416.701. See also SSA, POMS, SI 02301.005.
6
    Redeterminations are periodic reviews of recipients’ non-medical factors of SSI eligibility.
7
  SSA finds that there is good cause to reopen a determination or decision if: “…(1) New and material
evidence is furnished; (2) A clerical error was made; or (3) The evidence that was considered in making
the determination or decision clearly shows on its face that an error was made.” (20 C.F.R. §§ 416.1488-
1489.) Fraud exists when any person knowingly, willfully and with intent to defraud makes or causes a
false statement to be made or conceals or misrepresents a fact that is material to eligibility or payment
amount. Similar fault exists under the same circumstances except intent to defraud is not required.
(SSA, POMS, SI 04070.010A.)
8
    SSA, Administrative Message AM-04020, February 3, 2004.
9
  SSA, POMS, GN 02201.001A. SSA defines an overpayment as “…the total amount an individual
received for any period which exceeds the total amount which should have been paid for the period.” See
also 20 C.F.R. § 416.537. SSI payments that are not revised because of administrative finality are not
considered overpayments. This includes State-funded supplementary payments administered by SSA.
Page 3 – The Commissioner


RESULTS OF REVIEW
SSA’s administrative finality rules were not consistently applied for the majority of our
sample cases. Although no fraud or similar fault was found, some recipients were held
responsible for repaying SSI overpayments that were assessed beyond 24 months,
while others were not assessed any overpayments for months beyond the
administrative finality limit. Specifically, we estimate that approximately $74.7 million in
SSI payments to about 53,058 individuals was assessed as overpayments beyond the
24-month limit when no fraud or similar fault was found.10 Of this amount, we estimate
that SSA recovered about $4.3 million and was pursuing recovery of an additional
$24.2 million as of September 30, 2004. (See Appendix B for our sampling
methodology.)

                                                            Of the 275 sample cases we
                    Sample Results                          reviewed:11
                                       13 Cases
                                       Still Under             171 (62 percent) were not
      171 Cases                         Review
          Not
                                                                processed according to SSA’s
                                          (5%)
      Processed                                                 rules of administrative finality;
      According
       to Rules                           91 Cases             91 (33 percent) were processed
        (62%)                             Processed             according to the rules;12 and
                                          According
                                           to Rules            13 (5 percent) are still under
                                            (33%)
                                                                review.13




10
  See Appendix E for information about payments that were not assessed as overpayments because the
Agency’s administrative finality rules were applied.
11
  For information about the changes that caused the overpayments to the recipients in our sample, as
well as information about the ways in which SSA discovered those changes, see Appendix B,
tables 6 and 7, respectively.
12
  This includes 7 recipients whose overpayments were not limited to 24 months because SSA
determined that fraud or similar fault was involved.
13
   As of June 2005, we did not receive responses to our requests for information about these 13 cases
from SSA’s Field Offices.
Page 4 – The Commissioner


CASES NOT PROCESSED ACCORDING TO ADMINISTRATIVE FINALITY RULES

SSI payments totaling $240,647 to 171 individuals were assessed as overpayments
despite SSA’s rules of administrative finality.14 Of this amount, SSA recovered about
$13,918 and was pursuing recovery of an additional $78,136 as of
September 30, 2004.15

For example, on May 12, 2003, SSA discovered that a SSI recipient changed his living
arrangement on February 22, 2000. Because the Agency did not find fraud or similar
fault, the overpayment assessment should have been limited to 24 months according to
administrative finality. However, SSA staff revised monthly payments (which included
State-funded supplementary payments) beyond 24 months to March 2000. This
resulted in an overpayment totaling $16,354. Of this amount, $7,746 was assessed
beyond the administrative finality limit. (As of September 30, 2004, SSA recovered
$4,147 and was pursuing recovery of the remaining $3,599.)

REASONS FOR THE INCONSISTENT APPLICATION OF ADMINISTRATIVE
FINALITY

We believe the administrative finality rules were inconsistently applied for several
reasons, including: (1) limitations in SSA’s policies and procedures,
(2) misunderstandings of the rules by Field Office staff, and (3) limitations in the
Agency’s computer systems.

Administrative Finality Policies and Procedures

Field Office staff did not have specific policies and procedures to follow when revising
overpayments that involved administrative finality. Although the Agency’s operating
instructions indicate that overpayments may be revised in accordance with the
administrative finality rules, the instructions do not specify how to process those
revisions when a portion of the overpayment occurred more than 24 months in the
past.16

For example, in response to our request for information, a Field Office employee
indicated that a case in our sample was not processed in accordance with the
administrative finality rules and requested guidance on how to correct the resulting
overpayment. We provided staff in SSA's Office of Income Security Programs with the
details of the case and asked how the overpayment should be revised. In response,
staff acknowledged that there are no policy instructions that specifically address revising

14
  This includes 78 individuals whose SSI payments included State-funded supplementary payments
administered by SSA.
15
  For more information about the status of these overpayments as of September 30, 2004, see
Appendix B, table 8.
16
     SSA, POMS, SI 04070.070.
Page 5 – The Commissioner


overpayments that include amounts that should not have been assessed under
administrative finality.17 Without written policies for Field Office employees to follow,
similar cases may not be consistently processed.

Misunderstandings of the Rules by SSA Staff

We found that Field Office staff did not always fully understand the rules of
administrative finality.18 In 11 cases in which staff revised too many months, the
recipients filed appeals questioning the accuracy of the overpayments or requested
waivers to relieve them of their obligations to repay the funds. However, in each case,
SSA staff upheld the prior determinations or denied the waiver requests, even though a
portion of the overpayments should not have been assessed according to administrative
finality.

In 10 other cases, staff informed us that the cases were processed in accordance with
administrative finality when, in fact, they were not.19 In each of these cases, SSA staff
determined the period that could be revised to be greater than 24 months even though
neither fraud nor similar fault was found.

Computer System Limitations

Generally, SSA uses its Modernized Supplemental Security Income Claims System
(MSSICS) to electronically establish and update SSI records. However, the system has
not been fully programmed to prevent revisions to payments that should not be changed
according to the Agency’s administrative finality rules. Because of these limitations,
SSA staff must understand the rules and pay careful attention to the information entered
into MSSICS and the results produced by the system to ensure those rules are
appropriately applied. We found that SSA staff did not always ensure that the system’s
results were in accordance with administrative finality rules and, as a result, payments
issued more than 24 months in the past were assessed as overpayments even though
fraud or similar fault was not found.




17
  According to SSA’s Office of Income Security Programs, the portion of the overpayment that was
incorrectly assessed in this sample case should be considered uncollectible.
18
  SSA provided training on administrative finality in September 2003, but it was limited to situations
involving fugitives. Our sample included 17 fugitive cases, all of which were processed before the
Agency’s September 2003 training. (Of these 17 cases, 11 were not processed in accordance with SSA’s
administrative finality rules.)
19
   It is possible that, in other cases which were not processed in accordance with administrative finality,
SSA staff believed they processed the changes appropriately, although they did not specifically indicate
this in their responses to us.
Page 6 – The Commissioner


Information Entered into   When SSA discovers changes that could affect months prior to
MSSICS                     the administrative finality period, Agency staff may have to
                           manipulate the data entered into MSSICS to ensure the rules
are properly applied. For example, when law enforcement issues a warrant for an SSI
recipient, SSA staff are instructed to enter the date of the warrant into MSSICS unless it
is beyond the administrative finality limit.20 When this happens, SSA staff must input the
earliest date that is permitted by administrative finality instead of the actual warrant
date.21 We found that Agency staff did not always modify the data entered into MSSICS
and, as a result, too many months were revised. Specifically, we identified cases where
SSA staff input into MSSICS the dates that the recipients’ circumstances changed even
though those dates were beyond the administrative finality period (and fraud or similar
fault was not found).

For example, on January 5, 2002, SSA discovered—through a computer match—that a
recipient began receiving an annuity in September 1999. Although SSA did not find
fraud or similar fault, Agency staff input into MSSICS the date that the recipient began
receiving her annuity in September 1999, which was more than 24 months in the past.
This resulted in an overpayment totaling $12,423. Of this amount, $1,195 was
assessed beyond the administrative finality limit.

Overriding MSSICS          MSSICS considers administrative finality by setting the
Output                     periods of review for redeterminations to 24 months when
                           income is not involved and 26 months when income is
involved. MSSICS allows SSA staff to gather information over a 26-month period
because income generally impacts monthly SSI payments 2 months after it is
received.22 However, under certain circumstances, income may be counted in the
month it is received or 1 month later. As a result, MSSICS may revise monthly
payments beyond 24 months. To prevent this, SSA staff must override the system’s
calculations when they would result in changes to SSI payments that were issued prior
to the 24-month administrative finality period.23 However, we found this procedure was
not always followed and, as a result, too many months were revised.

For example, on April 13, 1999, SSA staff initiated a redetermination on MSSICS with
an SSI recipient. At that time, the Agency discovered that the individual was receiving
more income than was previously reported but did not find fraud or similar fault.
Consequently, SSA staff reviewed the period from March 1997 to March 1999, which

20
  Modernized System Operations Manual, Part 4, Chapter 109 I. In general, individuals are ineligible for
an SSI payment for any month in which a felony or parole/probation violation warrant is unsatisfied
(Social Security Act § 1611(e)(4), 42 U.S.C. § 1382(e)(4)).
21
  If the actual date the warrant was issued is entered into MSSICS, the program may revise months that
should not be changed according to the administrative finality rules.
22
     20 C.F.R. § 416.420.
23
     SSA, POMS, SI 04070.030.B.2.
Page 7 – The Commissioner


was within 26 months. Under administrative finality, May 1997 was the earliest month
that should have been revised. Because of the amount of income received in
March 1997, it was counted in that month instead of 2 months later. However, SSA
staff did not override the system’s overpayment assessment. Of the
$1,764 overpayment recorded, $131 was assessed beyond the administrative finality
limit.

In responding to our request for information, a Field Office manager acknowledged that
staff must be fully aware of the administrative finality rules to ensure that they are
applied correctly in MSSICS. In her correspondence with us, she wrote:

   MSSICS allows [staff] to make changes going past administrative finality. Only an experienced
   [claims representative] catches this and prevents changes being sent to the [Supplemental
   Security Record] going beyond [administrative] finality. Less experienced [claims
   representatives] are unaware they have even violated the rules of administrative finality. If the
   change isn't caught when the overpayment letter is sent out…then the [recipient] is charged
   with and is liable for repayment of an overpayment for which, in part, may be erroneously
   created.

CONCLUSION AND RECOMMENDATIONS

SSA staff did not consistently apply the Agency’s administrative finality rules in our
sample SSI cases. Limitations in SSA’s policies, procedures and computer systems—
as well as misunderstandings of the rules by SSA staff—contributed to the inconsistent
application of the rules. As a result, some recipients were required to repay SSI
payments that were issued prior to the 24-month administrative finality periods while
others were not. Therefore, to assist the Agency in ensuring that SSI recipients are
treated equitably, we recommend that SSA:

 1. Develop specific policies and procedures for staff to follow when revising
    overpayments that involve administrative finality.

 2. Provide comprehensive training to SSA staff on the rules of administrative finality.

 3. Enhance MSSICS to prevent the revisions to monthly payments that preceded the
    administrative finality period when neither fraud nor similar fault is found.

AGENCY COMMENTS

SSA agreed with our recommendations. (See Appendix F for SSA’s comments.)




                                                         S
                                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A — Acronyms

APPENDIX B — Scope, Methodology and Sample Results

APPENDIX C — Administrative Finality in the OASDI Program

APPENDIX D — Related Office of the Inspector General Reports

APPENDIX E — SSI Payments Not Considered Overpayments Because of
             Administrative Finality

APPENDIX F — Agency Comments

APPENDIX G — OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
C.F.R.     Code of Federal Regulations

MSSICS     Modernized Supplemental Security Income Claims System

OASDI      Old-Age, Survivors and Disability Insurance

POMS       Program Operations Manual System

SSA        Social Security Administration

SSI        Supplemental Security Income

SSN        Social Security Number

U.S.C.     United States Code
                                                                        Appendix B

Scope, Methodology and Sample Results
To accomplish our objective, we:

   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies, and procedures.

   Reviewed prior Office of the Inspector General audit reports.

   Contacted SSA staff from the Office of Income Security Programs for clarification of
    the Agency’s administrative finality rules.

   Obtained a file from SSA of 85,327 Supplemental Security Income (SSI) recipients
    who had overpayments of at least a $1,000 spanning 24 months or more and ending
    between January 1999 and March 2004. We selected a random sample of
    275 cases from this population for detailed analysis. Specifically, for each sample
    case, we:
    1. reviewed available electronic data—including the Supplemental Security Record
       and the Modernized Supplemental Security Income Claims System—and
       obtained further information from staff in SSA’s Field Offices;
    2. calculated the portions of the overpayments that were recorded contrary to the
       Agency’s administrative finality rules;
    3. determined whether an appeal or waiver request was denied on recorded
       overpayments that were assessed beyond the 24-month administrative finality
       period when no fraud or similar fault was found;
    4. determined the causes of overpayments (e.g., changes in income, resources, or
       living arrangements) and how SSA discovered them (e.g., through
       redeterminations, computer matches, or self-reports); and
    5. quantified the amount of SSI payments that were not considered overpayments
       because administrative finality was invoked.
We performed our audit in Boston, Massachusetts between July 2003 and
February 2005. We tested the data obtained for our audit and determined it to be
sufficiently reliable to meet our audit objective. We did not assess whether SSA
appropriately developed fraud or similar fault when applying its administrative finality
rules. The entities audited were the Office of Income Security Programs under the
Deputy Commissioner for Disability and Income Security Programs and SSA’s Field
Offices under the Deputy Commissioner of Operations. We conducted our audit in
accordance with generally accepted government auditing standards.



                                            B-1
SAMPLE RESULTS

                               Table 1: Population and Sample Size
Population size                                                                        85,327
Sample size                                                                               275



Table 2: Cases With Overpayments Assessed
                                                               Attribute            Dollars
   Despite Administrative Finality
Sample results                                                         171           $240,647
Point estimate                                                     53,058         $74,668,057
  Projection lower limit                                           48,736         $57,462,699
  Projection upper limit                                           57,212         $91,873,415
      Note: All projections were calculated at the 90-percent confidence level.



 Table 3: Recovered Overpayments That Were
                                                               Attribute            Dollars
    Assessed Despite Administrative Finality
 Sample results                                                         34            $13,918
 Point estimate                                                    10,550          $4,318,489
  Projection lower limit                                             7,882         $1,852,067
  Projection upper limit                                           13,747          $6,784,912
      Note: All projections were calculated at the 90-percent confidence level.



 Table 4: Pursuing Recovery of Overpayments that
                                                               Attribute            Dollars
    Were Assessed Despite Administrative Finality
 Sample results                                                         67           $78,136
 Point estimate                                                    20,789         $24,243,973
  Projection lower limit                                           17,196         $15,908,158
  Projection upper limit                                           24,738         $32,579,788
      Note: All projections were calculated at the 90-percent confidence level.




                                                 B-2
     Table 5: SSI Payments That Were Not
     Considered Overpayments Because                               Attribute             Dollars
     Administrative Finality Was Applied1
     Sample results                                                         25            $157,024
     Point estimate                                                      7,757        $48,721,267
      Projection lower limit                                             5,464        $21,552,436
      Projection upper limit                                           10,631         $75,890,098
          Note: All projections were calculated at the 90-percent confidence level.

CAUSES OF OVERPAYMENTS

We reviewed the changes which caused the overpayments to the SSI recipients in our
sample. The following table shows that the primary cause of overpayments was
unreported income.

    Table 6: Causes of Overpayments                                   Recipients          Percent
    Unreported Income                                                          153             56%
    Unreported Changes in Living Arrangements2                                  67             24%
    Unreported Resources                                                        39             14%
    Not Determined3                                                             13               5%
    Disability Cessations                                                        3               1%
      Total                                                                    275            100%




1
 Although some of the cases in Table 5 are also in Table 2, the dollars in both these tables are separate
and distinct.
2
 We included recipients who were living outside of the United States as well as fugitives with outstanding
warrants in this category.
3
  As of June 2005, we did not receive responses to our requests for information about these 13 cases
from SSA’s Field Offices.


                                                     B-3
DISCOVERING THE CHANGES WHICH CAUSED THE OVERPAYMENTS

Table 7 illustrates the various ways SSA discovered the changes which caused the
overpayments in our sample. SSA discovered the majority of overpayments by
conducting redeterminations and performing computer matches.

    Table 7: Discovering Overpayments                            Recipients             Percent
    Computer Matches                                                     109                 40%
    Scheduled Redeterminations                                           105                 38%
    Recipient Self-Reported                                               37                 14%
    Not Determined                                                        24                    8%
      Total                                                              275                100%

RECOVERY OF OVERPAYMENTS

Table 8 shows the status—as of September 30, 2004—of the overpayments in our
sample that were assessed despite the Agency’s administrative finality rules.4

    Table 8: Recovery Status of Overpayments that
       were Assessed Despite SSA’s Administrative               Amount                Percent
       Finality Rules
    Pursued for Recovery                                          $78,136                   32%
    Subsequently Deleted                                          $76,171                   32%
    Waived or Deemed Uncollectible                                $72,422                   30%
    Recovered                                                     $13,918                     6%
      Total                                                     $240,647                   100%




4
  Overpayments that were assessed despite SSA’s administrative finality rules were recorded and
resolved by the Agency together with amounts that were correctly assessed. Therefore, if the amounts
that SSA recovered exceeded the overpayments that were recorded in accordance with the rules, we
concluded that the Agency recovered a portion of the overpayments that were assessed despite the
rules.



                                                 B-4
                                                                                         Appendix C

Administrative Finality in the OASDI Program
The Old-Age, Survivors and Disability Insurance (OASDI) program provides benefits to
replace some of the earnings lost due to the retirement, disability or death of a worker.1
Like the Supplemental Security Income (SSI) program, OASDI benefits may be revised
under the rules of administrative finality. The Commissioner of the Social Security
Administration (SSA) has the authority to establish regulations and policies for the
administration of the Agency’s programs.2 SSA has established different criteria for the
SSI and OASDI programs. The table below shows some of the differences between the
programs.

               Comparison of Administrative Finality Rules in SSA Programs
                           SSI3                                                 OASDI4
                               A determination made by SSA may be revised…
    …within 1 year for any reason.                        …within 1 year for any reason.

    …within 2 years if:                                   …within 4 years if:
       New and material evidence is furnished;              New and material evidence is furnished;
       A clerical error was made; or                        A clerical error was made; or
       The evidence that was considered in making           The evidence that was considered in making
        the determination clearly shows on its face           the determination clearly shows on its face
        that an error was made.                               that an error was made.

    …at any time, if fraud or similar fault is found.     …at any time, if
                                                             fraud or similar fault is found, or
                                                             Evidence clearly shows on its face that an
                                                              error was made and if the change would be
                                                              favorable to the beneficiary.5




1
    The Social Security Act §§ 201– 202, 42 U.S.C. §§ 401– 402.
2
    The Social Security Act § 702(a)(5), 42 U.S.C. § 902(a)(5).
3
    20 C.F.R. §§ 416.1487-1494. See also SSA, POMS, SI 04070.010.
4
    20 C.F.R. §§ 404.987-996. See also SSA, POMS, GN 04010.020B.
5
 SSA’s regulations provide several other reasons that permit revisions at any time under the OASDI
program.


                                                        C-1
In general, the Agency established more limitations on revising previously issued
monthly payments under the SSI program than under the OASDI program. For
example, in our April 2005 report, Disabled Supplemental Security Income Recipients
With Earnings (A-01-04-14085), we estimated that about $8.1 million was not paid to
about 11,880 SSI recipients because of administrative finality. However, these funds
would have been paid if the SSI rules permitted changes beyond the 24-month period
when those changes would be favorable to the recipients (similar to the rules under the
OASDI program).

For example, SSA withheld a portion of an SSI recipient’s payments based on her
estimated earnings for 1999 and 2000. However, her actual earnings were less than
the amounts previously estimated. Although we alerted SSA to the discrepancy during
the audit, too much time elapsed and the Agency did not review the earnings because
of administrative finality. We estimate that this individual may have been eligible to
receive an additional $1,019 but—because of administrative finality—it was not paid.

Because we were unable to identify a population of OASDI records in which SSA’s
administrative finality rules were involved, we could not assess whether the Agency
applied the rules consistently under the OASDI program. Therefore, we could not
determine whether the inconsistencies we found in the SSI program also existed in the
OASDI program.




                                          C-2
                                                                                       Appendix D

Related Office of the Inspector General Reports
We have issued several reports that discussed the Social Security Administration’s
(SSA) rules of administrative finality.

Payment Accuracy        In December 1999, we issued our audit report, Performance
Rates                   Measure Review: Reliability of the Data Used to Measure the
                        Dollar Accuracy of Old-Age and Survivors Insurance Payment
Outlays (A-02-98-01001). In this report, we noted that SSA’s payment accuracy rate
excludes payment errors subject to administrative finality. We recommended that the
Agency "Include all error cases in the calculation of the accuracy rate." SSA had the
following response:

      SSA's regulations on administrative finality provide that determinations and decisions
      made by the Agency can be reopened and revised only for certain reasons and within
      certain periods of time. Since these determinations are the final decisions of the
      Commissioner, they are presumed to be correct and payments subject to administrative
      finality cannot be adjusted. No overpayment exists or should be computed for the period.

      We believe there is little utility to reporting situations that are not subject to correction and
      including these cases as a measure of accuracy would distort the validity of the data.

In our report, we responded that "The purpose of the Stewardship Review is to provide
an assessment of the accuracy of payments in the Title ll program. Although payments
subject to administrative finality cannot be adjusted, they are erroneous payments.
These payments should be included in the calculation of the Title ll rate since their
inclusion would result in a better representation of the accuracy of Title ll payments."

Missing SSNs
                        In September 2002, we issued our audit report, Impact on the
                        Social Security Administration’s Programs When Auxiliary
Beneficiaries Do Not Have Their Own Social Security Numbers (A-01-02-22006). In this
audit, we found 53 cases in which SSA did not consider the individuals’ Old-Age,
Survivors and Disability Insurance (OASDI) benefits when calculating their
Supplemental Security Income (SSI) eligibility because their Social Security numbers
(SSN) were missing from their OASDI benefit records. In total, these individuals
received $1.17 million that would not have been paid if SSA had considered their
OASDI benefits when the Agency calculated their SSI payments. However, because of
SSA’s rules of administrative finality, $723,396 of the $1.17 million was not recorded as
overpayments and recovery was not pursued.




                                                    D-1
SSI Fugitive Felon    In September 2003, we issued our audit report, Assessment of
Project               the Supplemental Security Income Fugitive Felon Project
                      (A-01-03-23070). In this audit, we found that SSA did not
recover about $137.8 million in SSI payments—issued to fugitives who had outstanding
warrants—because the Agency applied its administrative finality rules.

To address discrepancies in the application of administrative finality with regard to
fugitive ineligibility, we recommended that SSA provide guidance, training and oversight
of administrative finality decisions to ensure the rules are applied uniformly to all
fugitives. The Agency agreed and issued new procedural instructions which included
information about administrative finality rules as they relate to fugitive determinations.1
In addition, SSA provided refresher training via a nationwide video broadcast in
September 2003, which included reminders about the application of administrative
finality when revising payments to fugitives.

Incorrect SSNs            In November 2003, we issued our audit report, Impact on the
                          Social Security Administration’s Programs When Auxiliary
                          Beneficiaries Have Incorrect Social Security Numbers
(A-01-03-33020). In this audit, we found 13 cases in which SSA did not consider the
auxiliary beneficiaries’ OASDI benefits when calculating their SSI eligibility because
their SSNs were incorrectly recorded on their OASDI benefit records. In total, these
individuals received $448,275 that would not have been paid if SSA had considered
their OASDI benefits when the Agency calculated their SSI payments. However, as a
result of SSA’s administrative finality rules, $219,111 of the $448,275 was not recorded
as overpayments and recovery was not pursued.

Disabled SSI               In April 2005, we issued our audit report, Disabled
Recipients with            Supplemental Security Income Recipients with Earnings
Earnings                   (A-01-04-14085). Although we estimated that approximately
                           $12.4 million was overpaid to about 11,880 recipients because
SSA did not previously consider all of the recipients’ earnings when calculating their SSI
payment amounts, we also found that additional SSI payments were not recorded as
overpayments because of the Agency’s administrative finality rules. Specifically, we
estimated that the earnings discrepancies for about 61,380 recipients would have
resulted in an additional $74.7 million in overpayments were it not for the Agency’s
administrative finality rules. We also estimated that about $8.1 million to about
11,880 SSI recipients was not paid because administrative finality was invoked and their
SSI records were not revised.




1
    SSA, POMS, SI 00530.


                                            D-2
                                                                                     Appendix E

SSI Payments Not Considered Overpayments
Because of Administrative Finality
Supplemental Security Income (SSI) payments that are not changed because of the
Social Security Administration’s (SSA) administrative finality rules do not meet the
Agency’s definition of overpayments and, therefore, recovery is not pursued. Our
sample showed that SSA staff determined that monthly payments totaling
$157,024 could not be assessed as overpayments because they preceded the
24-month administrative finality limit (and neither fraud nor similar fault was found).1 We
estimate that about $48.7 million in SSI payments was not assessed as overpayments
because administrative finality was applied.2 However, if SSA (1) had detected the
changes within the 24-month period; (2) found that fraud or similar fault existed; or
(3) had not established the 24-month administrative finality limitation, these funds could
have been pursued for recovery.

Because SSA does not perform redeterminations of all SSI recipients every 2 years,
changes that occurred beyond this period may not be detected and evaluated by the
Agency to determine their impact on SSI payments. SSA generally schedules
redeterminations annually or once every 6 years, depending on the likelihood of
payment errors. However, the periods of time covered by redeterminations do not
generally exceed 2 years. Therefore, when redeterminations are scheduled every
6 years for cases presumed to have a low risk of errors, 4 years of payments may not
be reviewed by SSA. Consequently, if changes that occurred during this 4-year period
are not reported until a scheduled redetermination is performed, the SSI payments that
were issued may not be revised and assessed as overpayments because of
administrative finality (unless fraud or similar fault is found).




1
  This includes State supplementary payments that SSA issued on behalf of various States. For purposes
of this audit, we did not assess whether SSA appropriately developed fraud or similar fault when applying
its administrative finality rules.
2
  This figure may be understated because the data available for some of our sample cases was limited.
We were unable to quantify an amount for all cases because the Agency does not routinely obtain
evidence of changes that occurred prior to the 24-month administrative finality limit when fraud or similar
fault is not involved.
                  Appendix F

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM                                                                      33196-24-1116


Date:      June 23, 2005                                                         Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye        /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Social Security Administration's
           Administrative Finality Rules" (A-01-04-24024)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"SOCIAL SECURITY ADMINISTRATION'S ADMINISTRATIVE FINALITY RULES"
(A-01-04-24024)

Thank you for the opportunity to comment on the draft report. We agree that the administrative
finality rules should be applied consistently to ensure the integrity of the Supplemental Security
Income (SSI) program. Our response to the specific recommendations below describe actions
already taken and planned to assist staff in applying the rules of administrative finality (AF)
consistently. We have also included some technical comments to enhance the accuracy of the
report.

Recommendation 1

The Social Security Administration (SSA) should develop specific policies and procedures for
staff to follow when revising overpayments that involve administrative finality.

Response

We agree. In our upcoming release of Program Operation Manual System SI 04070, which is
expected to be published in June 2005, we have added additional examples of how to calculate
the period subject to reopening. These new examples will be placed in SI 04070.030. We also
added in this section another example of how to adjust for Retrospective Monthly Accounting
(RMA) when the budget month income creates an incorrect overpayment in the budget months
barred to correction. Descriptive statements and additional examples were also added to SI
04070.070 to clarify that, in order to avoid receipt of overpayment diaries for months barred to
correction by administrative finality, those months need to have an “N” Type of Action Code
(TAC) entered (uncollectible overpayment). We also added two examples of reopening
overpayment determinations to clarify how and when to revise an overpayment determination
and which months are subject to revision.

Recommendation 2

SSA should provide comprehensive training to SSA staff on the rules of administrative finality.

Response

We agree. Most of our training and/or recent instructions about AF have been written in
reference to specific workloads, such as fugitive felon procedures, and not on general rules and
proper procedure. In addition, the significant differences in AF between the Title II and Title
XVI programs make it difficult to ensure consistent application within each program. We will
develop and deliver training that includes examples of situations routinely encountered by
employees and illustrate the proper way to post information in the Modernized Supplemental
Security Income Claims System (MSSICS) so that AF is properly considered.




                                                F-2
Recommendation 3

SSA should enhance MSSICS to prevent the revisions to monthly payments that preceded the
administrative finality period when neither fraud nor similar fault is found.

Response

We agree. We will determine the feasibility of enhancing MSSICS to prevent erroneous
revisions to monthly payments that precede the AF period. We have requested additional TAC’s
to clarify overpayments that are barred to recovery because of AF. Resources to complete these
requests will need to be ranked and approved via the Information Technology Advisory Board
(ITAB) process before the enhancements can be made.

[SSA provided additional technical comments which we incorporated into this report as
appropriate.]




                                             F-3
                                                                      Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

Acknowledgments

In addition to those named above:

   Jeffrey Brown, Senior Auditor

   Brennan Kraje, Statistician

   Kevin Joyce, IT Specialist

   Toni Paquette, Program Analyst

   Melinda Tabicas, Auditor

   Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-04-24024.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
